                REPORT ON THE
    FEDERAL COMMUNICATIONS COMMISSION
 FISCAL YEAR 2004 AGREED-UPON PROCEDURES ON
CLOSING PACKAGE INTRAGOVERNMENTAL ACTIVITY
                 AND BALANCES

        04-AUD-12-26       December 2, 2004




            Office of Inspector General

                       *******

        Federal Communications Commission
Camilla Barror
From:                       Camilla Barror
Sent:                       Thursday, December 02, 2004 4:46 PM
To:                         Treas (FMS) - 2004 (Financial.reports@fms.treas.gov); GAO CP-AUP Report
                            (engelg@gao.gov); Mark Reger
Cc:                         Walker Feaster; Thomas Cline; Steven Rickrode
Subject:                    FCC's IG-AUP Report for Closing Package Intragovernmental Activity and Balances


In accordance with TFM 4705.75, IG Agreed-Upon Procedures for Federal Intragovernmental Activity and Balances,
attached is the Agreed-Upon Procedures Report from the Federal Communications Commission Office of Inspector
General.



FCC_IA_AUP_12-2-
 04.pdf (167 KB...


If you have questions or need further information, please contact:

        Steve Rickrode, CPA, CISA
        Director, Financial Management Audits
        Office of Inspector General
        Federal Communications Commission
        (202) 418-0478
        Steven.Rickrode@fcc.gov


Thank you,

Camilla Barror, Senior Auditor, CPA, CIA, CISA
Office of Inspector General
Federal Communications Commission
(202) 418-7899




                                                             1
           Independent Accountant’s Report on Applying Agreed-Upon Procedures on
                  Closing Package Intragovernmental Activity and Balances

To the Inspector General of the
Federal Communications Commission

We have performed the procedures described below, which were agreed to by the Department of
the Treasury’s Financial Management Service (FMS), the U. S. Government Accountability
Office (GAO), and the Office of Management and Budget (OMB) as stated in the FMS Agency
Reporting Requirements for the Financial Report of the United States Government guidance,
solely to assist FMS in the preparation of, and GAO in the audit of the consolidated financial
statements of the U. S. Government as of and for the year ended September 30, 2004. The
Federal Communications Commission (FCC) management is responsible for the proper
accounting, presentation and reporting of its consolidated financial statements and reporting of
information to FMS.

This agreed-upon procedures engagement was conducted in accordance with attestation
standards established by the American Institute of Certified Public Accountants and the
Government Auditing Standards, issued by the Comptroller General of the United States. The
sufficiency of these procedures is solely the responsibility of FMS, GAO and OMB.
Consequently, we make no representations regarding the sufficiency of the procedures described
below either for the purpose for which this report has been requested or for any other purpose.
The procedures we performed and our associated findings are presented below.

Procedure 1:
Obtain all closing package (CP) trading partner data for intragovernmental activity/balances
supporting the closing package Reclassified Balance Sheet’s Federal Assets and Liabilities,
Reclassified Statement of Net Cost’s Federal Gross Cost and Federal Earned Revenue, and
Reclassified Statement of Change in Net Position’s Federal Nonexchange Revenue and
Budgetary and Other Financing Sources.

Results:
FCC provided the following reports obtained from FMS:

     •    FYE 2004 Intragovernmental Closing Package Activity Summary Report by Trading
          Partner;
     •    Closing Package vs. Fourth Quarter Comparative Data for FY 2004;
     •    FYE 2004 Intragovernmental Closing Package Activity Detail Report by Trading Partner;
     •    FYE 2004 Intragovernmental Closing Package Reciprocal Category Detail Report;
     •    FYE 2004 Intragovernmental Closing Package Reciprocal Category Summary Report;
     •    Intragovernmental Closing Package Comparative Status of Disposition Report FYE
          2004; and

Centerpark I
4041 Powder Mill Road, Suite 410
Calverton, Maryland 20705-3106
tel: 301-931-2050
fax: 301-931-1710                               1 of 7
www.cliftoncpa.com                  Offices in 15 states and Washington, DC
   •   Governmentwide Financial Report System (GFRS) Trading Partner Summary Report for
       the following:

           o Reclassified Balance Sheet;
           o Reclassified Statement of Net Cost; and
           o Reclassified Statement of Changes in Net Position.

Procedure 2:
Trace the intragovernmental transactions closing package trading partner data by federal line
items totals and/or trading partner activity/balances to the agency general ledger and the audited
financial statements and identify any differences.

Results:
We have rounded all amounts to the nearest thousands for comparison purposes.

Reclassified Balance Sheet (BS)

   •   We compared the Closing Package Line Description (CPLD) amounts on the Trading
       Partner Summary Report to the audited Balance Sheet. No differences were identified.
   •   We compared each CPLD amount to the final audited financial statement crosswalk file
       that was reconciled to the general ledger, and identified a difference in investments as
       shown in the following:

        Closing
        Package        Closing          Crosswalk/
        Line           Package          General Ledger                    Explanation of
        Description    Amount           Balance            Difference     Difference
        Investments    $3,257,049,000   $3,256,798,000     $251,000       The closing package
                                                                          line includes interest
                                                                          receivable from U S
                                                                          Treasury securities of
                                                                          $251,000.

   •   We compared the individual trading partner amounts on the GFRS Trading Partner
       Summary Report to the Intragovernmental Assets and Liabilities reported in the Required
       Supplementary Information (RSI) of the audited financial statements. No differences
       were identified.
   •   We compared the intragovernmental accounts receivable (AR) and payable (AP) amounts
       for each trading partner to the accounts receivable and payable sub ledger and identified a
       difference as follows:




                                              2 of 7
        Agency     Trading         Trading Partner       FCC                       Explanation of
        ID         Partner         Summary Report        Sub ledger   Difference   Difference
        2400       Office of       $1,164,011            $894,711     $269,300     The Trading
                   Personnel                                                       Partner
                   Management                                                      Summary
                   (OPM)                                                           Report
                                                                                   included
                                                                                   $269,300 as AP
                                                                                   with OPM but
                                                                                   should have
                                                                                   been reported
                                                                                   as AP with
                                                                                   trading partner
                                                                                   9900, Treasury
                                                                                   General Fund.



Reclassified Statement of Net Cost (SNC)
   •   We compared the CPLD amounts on the SNC Trading Partner Summary Report to the
       final audited financial statement crosswalk file which was reconciled to the general
       ledger and identified the following difference:

        Closing
        Package
        Line          Closing Package    Crosswalk/General                          Explanation of
        Description   Amount             Ledger Balance          Difference         Difference
        Benefit      $35,158,000         $35,300,000             ($142,000)         $144,000 recorded
        Program                                                                     in Fund CR2 was
        Costs                                                                       not reported on
        Related to                                                                  this line on the
        Exchange                                                                    CP. The
        Transactions                                                                remaining
                                                                                    difference of
                                                                                    ($2,000) is an
                                                                                    unidentified
                                                                                    difference.

   •   We compared the individual trading partner amounts on the SNC Trading Partner
       Summary Report to the Intragovernmental Earned Revenues and Related Costs reported
       in the RSI of the audited financial statements and identified the following differences:




                                                3 of 7
                         Closing
                         Package        Closing       RSI
        Trading          Line           Package       Revenue/                  Explanation of
        Partner          Description    Amount        Expense      Difference   Difference
        1300             Buy/Sell       $359,000      $358,000     $1,000       Rounding difference
        Department of    Revenue                                                for reporting
        Commerce                                                                purposes
        6900             Buy/Sell       $166,000      $165,000     $1,000       Rounding difference
        Department of    Costs                                                  for reporting
        Transportation                                                          purposes
        9500             Buy/Sell       $1,527,000    $1,544,000   ($17,000)    A reduction to a
        Independent      Costs                                                  trading partner’s
        and Other                                                               expenses for $9,000
        Agencies                                                                was reported instead
                                                                                in the RSI as
                                                                                expenses for $9,000
                                                                                thereby overstating
                                                                                the RSI amount by
                                                                                $18,000. The
                                                                                remaining ($1,000)
                                                                                difference is
                                                                                unidentified.

Reclassified Statement of Changes in Net Position (SCNP)

   •   We compared the CPLD amounts on the SCNP Trading Partner Summary Report to the
       audited SCNP or Statement of Custodial Activity (SCA), as applicable. No differences
       were identified.
   •   We compared the CPLD amounts to the final audited financial statement crosswalk file
       that was reconciled to the general ledger. No differences were identified.

Procedure 3:
Trace trading partner activities/balances from the intragovernmental transactions closing package
trading partner data to the agency’s supporting schedules:

   •   Agency Fourth-Quarter Intragovernmental Reconciliation; and
   •   CFO Representations using closing package data.

For items where agency reporting differences exist, trace the explanations to supporting
documentation and identify any discrepancies.

Results:
FCC notified us and we confirmed with FMS that the Agency Fourth-Quarter Intragovernmental
Reconciliation report did not exist. We were advised by FMS to use the Closing Package vs.
Fourth Quarter Comparative Data (Comparative Data Report) for fiscal year 2004 in performing
this procedure.



                                             4 of 7
•   We agreed the fourth quarter submission amounts by Reciprocal Category and trading
    partner on the Comparative Data Report to the Fourth Quarter Intragovernmental Activity
    Detail Report without exception.
•   We traced the closing package amount reported on the Comparative Data Report to the
    trading partner balances reported on the Closing Package Trading Partner Summary
    Reports for the Reclassified Balance Sheet, Statement of Net Cost, and Statement of
    Changes in Net Position. We identified the following differences:

     Reclassified
     Financial                   Reciprocal                          Explanation of
     Statement    Line           Category           Amount           Difference
     Statement     Other         18 – Financing     $367,889,000     This amount was not
     of Changes    Financing     Sources                             reported in Reciprocal
     in Net        Sources       Transferred                         Category 18 on the
     Position                    In/Out Without                      Reclassified Statement
                                 Reimbursement                       of Changes in Net
                                                                     Position. It was reported
                                                                     in Reciprocal Category
                                                                     29 on the reclassified
                                                                     financial statement.
     Statement     Imputed       25 – Imputed       $14,547,000      This line item was not
     of Changes    Financing     Cost/Imputed                        included in the
     in Net        Sources       Financing Source                    Comparative Data
     Position                                                        Report, but was
                                                                     included as a line item
                                                                     on the reclassified
                                                                     financial statement.
     Statement     Imputed       25 – Imputed       $14,547,000      This line item was not
     of Net Cost   Costs         Cost/Imputed                        included in the
                                 Financing Source                    Comparative Data
                                                                     Report, but was
                                                                     included as a line item
                                                                     on the reclassified
                                                                     financial statement.

•   We reviewed the Comparative Data Report for percentage differences greater than 10
    percent. Using the FCC’s responses in Section I.E. of the CFO Representations for
    Federal Intragovernmental Activity and Balances, we identified the amounts, which
    consisted of the differences between the closing package reciprocal category amount, and
    the fourth quarter submission amount. For Reciprocal Category 29 Uncategorized –
    Standard General Ledgers that are not assigned to any other category, we noted an
    unidentified difference of $11,685 or 93 percent. All other reciprocal category
    differences greater than 10 percent were reconciled as explained in the CFO
    Representations for Federal Intragovernmental Activity and Balances report.




                                         5 of 7
   •   We confirmed FCC’s explanations provided on the fiscal year 2004 CFO Representations
       for Federal Intragovernmental Activity and Balances to the applicable closing package
       document or the audited financial statement’s Required Supplemental Information on
       Intragovernmental Assets, Liabilities, Earned Revenues or Related Costs. We noted the
       following CFO Representation explanations differed from supporting data examined:

       o FCC’s response #2 in Section I.A. and response #1 in Section I.A.1 was “The CP
         reported $18,000 (TP 03 s/h/b -9,000) less in Intragovernmental Revenue than the
         RSI.” Our review showed that the $18,000 difference is in “Intragovernmental
         Expense” and not in “Intragovernmental Revenue.”
       o FCC’s response to question in Section I.C. listed five trading partners who did not
         report any intragovernmental balances with the FCC. FCC did not include in its
         response two agencies (the U.S. Postal Service and the Department of Health and
         Human Services) that did not report any intragovernmental balances.

Procedure 4:
   • Obtain FMS’ Comparative Closing Package Explanation of Differences Report for
      intragovernmental activities/balances;
   • Trace the differences between the agency and its trading partners by reciprocal
      category/line-item from FMS’ comparative reports to explanations from agency
      supporting documentation;
   • Identify any inconsistencies in amounts or explanations between FMS’ comparative
      reports and agency supporting documentation; and
   • In the event of non-reporting by trading partners, as indicated in the footer section of
      FMS’ comparative reports, identify that the difference is due to a nonreporting partner
      and do not proceed further with the review of the differences.

Results:
We obtained FMS’ Intragovernmental Closing Package Comparative Status of Disposition
Report for fiscal year ending 2004 which reported only one trading partner/reciprocal category.
The report identified a material difference of $3,227,049,000 between FCC and Trading Partner
20, Department of the Treasury, for reciprocal category 01 Investments/Debt.

FCC’s explanation for the material difference was a current year timing difference. By
explaining that this was a current year timing difference, the $3.2 billion difference is shown as
an adjustment to the FCC’s reported amount on the Comparative Status of Disposition Report
instead of an adjustment to the Department of Treasury’s reported amount. This adjustment
resulted in an Adjusted Reporting Amount in Investments of $30,000,000 for FCC that was not
correct. The FCC reported the $3.2 billion of U.S. Treasury securities as investments on the
audited balance sheet, in the general ledger and on the reclassified Closing Package Balance
Sheet. Therefore, the FCC’s Adjusted Reporting amount on this Comparative Status of
Disposition Report is not consistent with FCC’s financial statements and records as of September
30, 2004.




                                              6 of 7
Procedure 5:
Identify and include copies of internal control findings related to intragovernmental activities
from the financial statement audit. Also, identify and report auditor-proposed intragovernmental
adjustments that were waived by the agency, including items cited in the management letter.

Results:
We reviewed the following and did not identify internal control findings related to the
intragovernmental activities:

   •   Independent Auditor’s Report on Internal Controls dated November 1, 2004, related to
       the fiscal year 2004 financial statements audit;
   •   Passed adjusting journal entries included in general purpose financial statement audit’s
       management representation letter; and
   •   Management letter related to the fiscal year 2004 financial statements audit.

Procedure 6:
Deliver the separate Agreed-Upon Procedures Report on Closing Package Intragovernmental
Activity and Balances; as well as, copies of any internal control findings, to the agency’s CFO,
FMS, and GAO not later than December 2, 2004.

Results:
The FCC Agreed-Upon Procedures Report on Closing Package Intragovernmental Activity and
Balances was delivered to the agency’s CFO, FMS, and GAO on December 2, 2004.

                           *********************************

We were not engaged to, and did not conduct an examination of the matters addressed herein, the
objective of which would be the expression of an opinion on such information. Accordingly, we
do not express such an opinion. Had we performed additional procedures, other matters might
have come to our attention that would have been reported to you.

This report is intended solely for the information and use of the FCC, Office of Inspector
General and management, OMB, FMS and GAO and is not intended to be, and should not be
used by anyone other than the specified parties.




Calverton, Maryland
December 2, 2004




                                             7 of 7
